                   OFFICE O F INSPECTOR GENERAL
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                           Audit of Corporation for National
                               and Community Service
                     Grants Awarded to Connecticut Commission on
                            National & Community Service
                                Hartford, Connecticut

                            OIG Audit Report Number 03-08



                                   Financial Schedules
                                            and
                             Independent Auditor's Reports
                                       For the Period
                          October I., 1998, to December 31,2001
                              (Dates Vary by Grant Award)



                                      Prepared by
                          Leonard G. Birnbaum and Company
                             Certified Public Accountants
                                 6285 Franconia Road
                              Alexandria, Virginia 22310




This report was issued to Corporation management on September 12, 2003. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than March 12, 2004, and complete its
corrective actions by September 12, 2004. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                                                                                CORPORATION

                                   Office of Inspector General                                  F O R NATIONAI,
                         Corporation for National and Community Service
                                       Audit Report 03-08

                Audit of Corporation for National and Community Service Grants
                                          Awarded to
                  Connecticut Commission on National & Community Service

Introduction

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full- and part-time national and
community service programs. Currently, under the Act's requirements, the Corporation awards
approximately three-fourths of its ArneriCorps*State/National funds to State commissions. The
State commissions in turn fund and are responsible for the oversight of subgrantees who execute
the programs. Through these subgrantees, ArneriCorps members perform service to meet
educational, human, environmental, and public safety needs.

The Office of Inspector General (OIG) retained Leonard G. Bimbaum and Company to audit
Corporation grants awarded to the Connecticut Commission on National & Community Service.
These grants covered costs related to ArneriCorps, Program Development and Training,
Administrative, America Reads, Promise Fellows, Make a Difference, Leam & Serve, and
Education Awards from October 1, 1998, through December 3 1, 2001. The audit's objectives
were to determine whether: (1) financial reports prepared by the Connecticut Commission
presented fairly the financial results of the awards; (2) the internal controls were adequate to
safeguard Federal funds; (3) the Commission and its subrecipients had adequate procedures and
controls to ensure compliance with Federal laws, applicable regulations and award conditions,
and that member services were appropriate to the programs; (4) the award costs reported to the
Corporation were documented and allowable in accordance with the award terms and conditions;
and (5) the Commission had established adequate oversight and informed subrecipients of the
Corporation's Government Performance Results Act goals.

The Commission had total claimed costs of $7,170,359, of which the auditors questioned $1,892.
The questioned amount represents payments to a consultant that were in excess of the daily
maximum. The auditors concluded that the Consolidated Schedule of Award Costs presents
fairly the costs claimed by the Connecticut Commission, except for the questioned costs
identified in the report.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditor's conclusions. Our review of the auditor's work papers disclosed no instances where
Leonard G. Birnbaum and Company did not comply, in all material respects, with generally
accepted government auditing standards.




                                                                                            Inspector General
                                                                                            1201 New York Avenue, NW
                                                                                            Washington, 1)C 2OFi25
The Office of Inspector General provided the Connecticut Commission and the Corporation a
draft of this report for their review and comment. Their responses are included in their entirety
as Appendices A and B, respectively.
                        Audit of Corporation for National and Community Service
                                          Grants Awarded To
                        Connecticut Commission on National & Community Service
                                         Hartford, Connecticut

                                                           Table of Contents



Report Summary and Highlights:

          Results in Brief ..............................................................................................

          Summary of Audit Results ............................................................................

          Compliance....,........................................................,......................................

          Internal Controls............................................................................................

          Purpose and Scope of Audit ..........................................................................

          Background ............................................................,......................................

          Report Release................................................................ ...............................

Independent Auditor's Report ...................................................................................

Financial Schedules:

          Consolidated Schedule of Award Costs ........................................................

          Notes to Consolidated Schedule of Award Costs ..........................................

          Exhibit A - Schedule of Award Costs
                      AmeriCorps.........................................................................- ......

          Exhibit B - Schedule of Award Costs
                      Administration ...........................................................................

          Exhibit C - Schedule of Award Costs
                      Program Development and Training (PDAT)............................

          Exhibit D - Schedule of Award Costs
                      Learn and Seme .........................................................................

          Exhibit E - Schedule of Award Costs
                            America Reads ...........................................................................
                                           Table of Contents - Continued


        Exhibit F - Schedule of Award Costs
                    Promise Fellows.........................................................................                17

        Exhibit G - Schedule of Award Costs
                   Education Awards......................................................................                   18

        Exhibit H - Schedule of Award Costs
                   Make a Difference Day Grant ....................................................                         19


Compliance and Internal Controls:

        Independent Auditor's Report on Compliance and Internal Controls
           Over Financial Reporting ........................................................................               20

             Compliance Findings...............................................................................            21

             Internal Control Findings ........................................................................            34

        Follow-up on Pre-Audit Survey Findings ....................................................                        35

Responses to Report

Connecticut Commission on National & Community Service                              ................................ Appendix A
Corporation for National and Community Service ................................................... Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                         LEONARD G . BIRNBAUM                        AND     COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER
                                                                                                       WASHINGTON. D.C.
LEONARD G. BIRNBAUM
                                                                                                    SUMMIT, NEW JERSEY
DAVID SAKOFS
                                                                                                REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




       J. Russell George
       Inspector General
       Corporation for National and Community Service

       This report is issued under an engagement to audit the costs claimed by the Connecticut Commission
       on National & Community Service (Commission or CCNCS) and its subrecipients from October 1,
       1998, through December 31, 2001, under the grants awarded by the Corporation for National and
       Community Service (Corporation). This report focuses on the audit of claimed costs, instances of
       noncompliance with Federal laws, applicable regulations or award conditions, and internal control
       weaknesses disclosed during the audit at the Commission and its subrecipients.

                                                   Results in Brief

       As a result of our audit, we are questioning costs totaling $1,892, an amount that represents less than
       . l percent of the total of $7,170,359 claimed by the Commission. This amount represents payments
       to a consultant that exceeded the daily limit imposed by Corporation regulations. Details related to
       questioned costs appear in the Independent Auditor's Report.

       Our audit also disclosed that, because the Commission is a unit of the Connecticut State government
       and must use the State's accounting system, the Commission lacks the ability to track expenditures
       by budget line item without extensive analysis. Details related to this and other noncompliance
       findings appear in the Independent Auditor's Report on Compliance and Internal Controls Over
       Financial Reporting.




                                                             1


                            MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                    Grant Programs Audited

Our audit of the Commission covered financial transaction, compliance and internal controls testing
of the following program awards funded by the Corporation:

  Program           Award Numbel:              Award Period                  Audit Period
AmeriCorps          94ASCCT007             08/29/94 to 1213 1/00         10/01/98 to 12/31/00
AmeriCorps          00ASCCT007             09/01/00 to 08/31/03          0910 1/00 to 09/30/0 1
Administrative      94SCSCT007             0 1/27/94 to 12131/00         10101/98 to 12131/00
Administrative      01SCSCT007             01/01/01 to 12131103          01/01/01 to 12/31/01
PDAT                95PDSCT007             0 1101/95 to 12131101         10/01/98 to 12131/01
Learn & Serve       98LSCCT007             0710 1/98 to 09130101         10101/98 to 09/30/01
America Reads       98ARCCT007             0910 1/98 to 08/30/00         10101/98 to 08/30/00
Promise Fellows     98APSCT007             11/01/98 to 12/31/99          11/01/98 to 12/31/99
Promise Fellows     99APSCT007             01/01/01 to 12/31/01          01/01/01 to 12/31/01
Education Awards    97EDSCT038             0710 1/97 to 12131/04         10/01/98 to 12131/01
Make a Difference   99MDDCT007             10/20/98 to 12131/99          10/20/98 to 12131/99

Our audit of the costs claimed by thie Commission under these awards disclosed the following:

                                                  Amount

Claimed Costs

Questioned Costs


                              SUMMARY OF AUDIT RESULTS

As a result of our audit of the aforementioned awards, we are questioning costs totaling $1,892 as
summarized below and detailed in Exhibits A through H to the Independent Auditor's Report.
Questioned costs are costs for which there is documentation that the recorded costs were expended in
violation of the law, regulations or specific conditions of the award, or those costs which require
additional support by the grantee or require interpretation of allowability by the Corporation.

In our opinion, except for $1,892 in (questionedcosts, the Commission's Schedules of Award Costs
accurately reflect the costs claimed for the period from October 1, 1998, to December 3 1,2001.
The following summarizes the costs questioned on these awards by reason:

Administrative
     Consultant payments in excess of ceiling

       Total Questioned Costs

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project such
costs to total expenditures incurred, based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to the Independent Auditor's Report.


                                         COMPLIANCE

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

           The Commission did not track expenditures by budget line item as required by
           Corporation provisions.
           The Commission did not submit Financial Status Reports (FSRs) on a timely basis.
           AmeriCorps subrecipients did not submit FSRs on a timely basis.
           Supporting documentation was not available for various costs claimed by subrecipients.
           Consultant fees paid by the Commission exceeded Corporation regulations.
           Cumulative Administrat.ive and PDAT costs reported on FSRs for the audit period
           exceeded the amount recorded in the general ledger.
           AmeriCorps subrecipien.t costs exceeded the amounts reported on the Commission's
           FSRs during the audit period.
           Subrecipients did not maintain all required AmeriCorps documentation.
           Subrecipients erroneous1.ycomputed costs for reimbursement.
                                   INTERNAL CONTROLS

Finding numbers 1 through 12 set forth in the Compliance section of the report are also considered
findings on internal controls.

                            PURPOSE AND SCOPE OF AUDIT

Our audit covered the costs claimed during the period October 1, 1998, to December 31,2001.

The principal objectives of our audit were to determine whether:

       1.      Financial reports prepared by the Commission presented fairly the financial results of
               the award;

       2.      The internal controls were adequate to safeguard Federal funds;

       3.      The Commission and its subrecipients had adequate procedures and controls to
               ensure compliance with Federal laws, applicable regulations and award conditions,
               and that member services were appropriate to the programs;

       4.      The award costs reported to the Corporation were documented and allowable in
               accordance with the award terms and conditions; and

       5.      The Commission had established adequate oversight and informed subrecipients of
               the Corporation's Government Performance Results Act goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed against the awards, as presented in the Consolidated
Schedule of Award Costs and the grant-specificExhibits of Award Costs (Exhibits A through H), are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in this schedule and exhibits. An audit also includes assessing the
accounting principles used and significant estimates made by the auditee, as well as evaluating the
overall financial schedule presentation. Our audit included reviews of Single Audit Reports on
financial statements of the State of Connecticut issued by the Auditors of Public Accounts for the
years covered by this engagement. We reviewed audit reports and working papers prepared by
independent public accountants of the Commission's subrecipients in accordance with requirements
of OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations. Our
audit also followed up on the findings and recommendations in the Pre-Audit Survey Report of the
Commission dated October 26,2000 (Corporation Office of Inspector General Report 01-21). We
believe our audit provides a reasonable basis for our opinion.
The contents of this draft report were disclosed to and discussed with the Commission at an exit
conference on July 21,2003. In addition, we provided a draft of this report to the Commission and
to the Corporation for comment on August 5, 2003, and received responses from both the
Commission and the Corporation on September 4 and 5,2003, respectively.


                                        BACKGROUND
The Corporation, pursuant to the authority of the National and Community Service Trust Act of 1993
(42 U.S.C. 5 12501-681), as amended, awards grants and cooperative agreements to State
commissions and other entities to assist in the creation of full and part time national and community
service programs.

The Commission has received funding, as of December 3 1,2001, from the Corporation for various
programs in the amount of $22.2 million. For the period under audit, Program Years 1998-1999,
1999-2000 and 2000-2001, expenditures per the Financial Status Reports (FSRs) amounted to
$7,170,359. The majority of this amount has been subgranted to numerous entities in order to carry
out the programs. A brief synopsis of the programs follows:
                                                                                  Costs Claimed
                                                                                     by CCNCS
       Program                    Award Number           Award Amount              (1998-2001)

AmeriCorps
Competitive and Formula
Competitive
    Total AmeriCorps

Program Development
& Training

Learn and Serve

America Reads

Promise Fellows


     Total Promise Fellows

Education Awards

Make A Difference Dav
                                     REPORT RELEASE

This report is intended for the information and use of the Office of Inspector General, management
of the Corporation for National and Community Service, the Connecticut Commission on National
and Community Service and its subrecipients, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.
                         LEONARD G . BIRNBAUM                            AND   COMPANY, L L P
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                     WASHINGTON OFFICE
                                                    6285 FRANCONIA ROAD
                                                  ALEXANDRIA, VA 22310-2510


                                                        (703) 922-7622
                                                      FAX: (703) 922-8256
LESLIE A. LEIPER
                                                                                                           WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                                     SUMMIT, NEW JERSEY
DAVID SAKOFS
                                                                                                    REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




       J. Russell George
       Inspector General
       Corporation for National and Community Service

                                   INDEPENDENT AUDITOR'S REPORT

       We have audited the costs incurred by the Connecticut Commission on National and Community
       Service (Commission or CCNCS) for the award numbers listed below. These costs, as presented in
       the Consolidated Schedule of Award Costs and the grant-specificExhibits of Award Costs (Exhibits
       A through H), are the responsibility of the Commission's management. Our responsibility is to
       express an opinion on the Consolidated Schedule of Award Costs and Exhibits A through H, based
       on our audit.

         Program           Award Number                   Award Period                       Audit Period
       AmeriCorps          94ASCCT007                  08/29/94 to 12131/00              10101/98 to 12131/00
       AmeriCorps          00ASCCT007                  O9/O 1/00 to 08131/03             0910 1/00 to O9/3O/O1
       Administrative      94SCSCT007                  0 1/27/94 to 12131/00             10/01/98 to 12/31/00
       Administrative      01SCSCT007                  01/01/01 to 12/31/03              01/01/01 to 12/31/01
       PDAT                95PDSCT007                  01/01/95 to 12/31/01              10/01/98 to 12/31/01
       Learn & Serve       98LSCCT007                  07/01/98 to 09/30/0 1             10101/98 to O9/3O/O1
       America Reads       98ARCCT007                  0910 1/98 to 08/30/00             10/01/98 to 08/30/00
       Promise Fellows     98APSCT007                  11/01/98 to 12/31/99              11101/98 to 12131/99
       Promise Fellows     99APSCT007                  01/01/01 to 12/31/01              01/01/01 to 12/31/01
       Education Awards    97EDSCT038                  0710 1/97 to 12131/04             10/01/98 to 12/31/01
       Make a Difference   99MDDCT007                  10/20/98 to 12131/99              10/20/98 to 12131/99


       We conducted our audit in accordance with auditing standards generally accepted in the United
       States of America and Government ,Auditing Standards, issued by the Comptroller General of the
       United States. Those standards require that we plan and perform the audit to obtain reasonable
       assurance about whether the financial schedules are free of material misstatement. An audit includes
       examining, on a test basis, evidence supporting the amounts and disclosures in the financial
       schedules. An audit also includes assessing the accounting principles used, and significant estimates




                            MEMBERS O F THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
made by management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

In our opinion, except for $1,892 in questioned costs, the Schedule of Award Costs (Exhibits A
through H) referred to above present. fairly, in all material respects, the costs claimed for the period
October 1,1998, to December 3 1,2001, in conformity with generally accepted accounting standards
in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report, dated June 30,
2003, on Compliance and Internal Clontrols over financial reporting.

This report is intended for the information and use of the Office of Inspector General, as well as
management of the Corporation for National and Community Service, the Connecticut Commission
on National and Community Service and its subrecipients, and the U.S. Congress. However, this
report is a matter of public record and its distribution is not limited.

                                           &&~bL.=-k
                                               Leonard G. Birnbaum and



Alexandria, Virginia
June 30,2003
                 Connecticut Commission on National & Community Service
                          Consolidated Schedule of Award Costs


Corporation for National and Community Service Awards:



                                                          Costs Claimed
                                        Approved Budget     by CCNCS       Questioned
 Award Number             Proeram         51994 - 20011    (1998 - 2001)     Costs       Reference

94ASCCT007          AmeriCorps (C&F)      $14,553,839       $4,l9 1,648
00ASCCT007          AmeriCorps (C)          5,138,662        1.780.449

   Total AmeriCorps                        19,692,501        5.972.097             -    Exhibit A


94SCSCT007          Administrative          1,105,732         279,5 17         1,892
0 1SCSCT007         Administrative            354.3 15        132.71 1

   Total Administrative                     1.460.047         412.228          1,892    Exhibit B


95PDSCT007          PDAT                      33 1,327         190.354             -    Exhibit C

98LSCCT007          Learn and Serve           323.100         272,610              -    Exhibit D

9 8ARCCT007         America Reads             275,220          171.750             -    Exhibit E


98APSCT007          Promise Fellows            58,014           55,750
99APSCT007          Promise Fellows            76.800           56.702

   Total Promise Fellows                      134.814          112.452             -    Exhibit F


97EDSCT038          Education Awards           36.868           36.868             -    Exhibit G

99MDDCT007          Make A Difference           2,000            2.000             -    Exhibit H

   Grand Totals - All Awards              $22.255.877       $7.170.359       $1.892
                  Connecticut Commission on National & Community Serve
                      Notes to Consolidated Schedule of Award Costs




Reporting Entity

The accompanying Schedule and Exhibits include amounts claimed and questioned under
AmeriCorps, Administrative, and Program Development and Training grants awarded by the
Corporation for National and Community Service for the period from October 1,1998, to December
3 1,2001 (periods vary by individual grants).

The Commission awards its AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps program and report financial and programmatic results to the Commission.


Summarv of Significant Accounting Policies

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared from the reports submitted by the Commission to the Corporation. The
basis of accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased, instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in the
Schedule of Award Costs include the cost of equipment purchased during the period rather than a
provision for depreciation. The equipment acquired is owned by the Connecticut Commission on
National and Community Service while used in the program for which it was purchased, or in other
future authorized programs. However, the Corporation has reversionary interest in the equipment.
Its disposition, as well as the ownership of any proceeds therefore, is subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
                                                                             Exhibit A
                  Connecticut Commission on National & Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 94ASCCT007
                               Award Number 00ASCCT007
                           October 1,1998, to September 30,2001


                                       AmeriCorps


                                         Claimed           Questioned
Grant                                     Costs              Costs         Reference

Commission
   94ASCCT007 (C & F)                   $4,191,648          $              Note 2

                                         1,780,449

Commission Total                         5,972,097                 -       Note 1


Leadership, Education, and Athletics
    In Partnership                       2,707,95 1

Regional YouthJAdult Substance
    Abuse Project                        1,154,893

Southend Community Services               582,244                  -

Urban Solutions                           452,161                  -       Note 2

Other Subrecipients                      1,698,964

Total Reported by Subrecipients         $6,596,213


Difference Between CCNCS
     and Subrecipients Costs Claimed    $ 624.116           $              Note 1
-
Notes

1. Commission financial personnel stated that the $624,116 difference noted on Exhibit A was due
   in part because the subrecipient, Urban Solutions, was undergoing an audit and the final figures
   were unavailable for inclusion in the Commission's FSRs. It was also noted that since WBRS
   was not in effect until the 2000-2001 program year, there was a lack of coordination of financial
   information between the Commission and its subrecipients. (Please refer to Finding No. 7 in the
   Independent Auditor's Report on Compliance and Internal Controls Over Financial Reporting.)

2. Urban Solutions' expenditures for program year 1998-1999, audited by a firm hired by Urban
   Solutions, disclosed no deficiencies. Another firm, employed by the Commission to audit
   program years 1999-2000 and 2,000-2001, identified costs of $461,292 for the period July 1,
   1998, through June 30,2001, compared to $535,456 in funds provided, a deficiency of $74,164.
   The FSR reported costs, however, totaled $452,161, resulting in an unreconciled difference of
   $9,129 between the amount reported and the amount per audit. In the draft version of this report,
   we questioned the deficiency of $74,164.

   In its response, the Commission pointed out that the deficiency is, in fact, an excess drawn from
   the State of Connecticut funds since the amount reflected on the related FSR submitted to the
   Corporation does not include the deficiency of $74,164. We interpret the Commission's
   response to mean that it will not, at any future time, claim this deficiency against Corporation
   funds. On the basis of that understanding, we have eliminated this amount from questioned
   costs.
                                                                                      Exhibit B

                Connecticut Commission on National & Community Service
                               Schedule of Award Costs
                    Corporation for National and Community Service
                              Award Number 94SCSCT007
                              Award Number 01SCSCT007
                          October 1,1998, to December 31,2001

                                     ADMINISTRATIVE




                                            Claimed              Questioned
Grant                                        Costs                 Costs           Reference


94SCSCT007 Administrative                   $279,517                $1,892         Note 1

OlSCSCT007 Administrative                     132,711                     -


Total                                       $412.228                $1.892


-
Note

1. The questioned cost represents payment to a consultant in excess of the ceiling established by
   Corporation Grant Provisions (please refer to Finding No. Four).
                                                                    Exhibit C
           Connecticut Commission on National & Community Service
                          Schedule of Award Costs
               Corporation for National and Community Service
                         Award Number 95PDSCT007
                     October 1,1998, to December 31,2001

                     Program Development and Training




                                  Claimed          Questioned
Grant                              Costs              Costs


95PDSCT007 PDAT
                                                                     Exhibit D

              Connecticut Commission on National & Community Serve
                             Schedule of Award Costs
                 Corporation for National and Community Service
                           Award Number 98LSCCT007
                       October 1,1998, to September 30,2001

                                Learn and Serve




                                    Claimed        Questioned
Grant                                Costs           Costs


98LSCCT007 Learn and Serve
                                                                    Exhibit E

             Connecticut Commission on National & Community Serve
                            Schedule of Award Costs
                Corporation for National and Community Service
                          Awa.rd Number 98ARCCT007
                        October 1,1998, to August 30,2000

                                America Reads




                                    Claimed       Questioned
Grant                                Costs          Costs


98ARCCT007 America Reads
                                                                    Exhibit F

             Connecticut Commission on National & Community Serve
                            Schedule of Award Costs
                Corporation .forNational and Community Service
                          Award Number 98APSCT007
                          Award Number 99APSCT007
                     November 1,1998, to December 31,2001

                               Promise Fellows




                                   Claimed        Questioned
Grant                               Costs           Costs



98APSCT007 Promise Fellows

9OAPSCT007 Promise Fellows

   Total
                                                                    Exhibit G

             Connecticut Commission on National & Community Serve
                            Schedule of Award Costs
                Corporation for National and Community Service
                          Award Number 97EDSCT038
                      October 1,1998, to December 31,2001

                              Education Awards




                                    Claimed        Questioned
Grant                                Costs           Costs



97EDSCT007 Education Awards          $36.868      $         -
                                                                    Exhibit H

             Connecticut Commission on National & Community Serve
                            Schedule of Award Costs
                Corporation for National and Community Service
                          Award Number 99MDDCT007
                      October 20,1998, to December 31,1999

                             Make a Difference Day



                                     Claimed         Questioned
                                      Costs            Costs



99MDDCT007 Make A Difference Day      $2.000         $
                        LEONARD G . BIRNBAUM                           AND    COMPANY, LLP
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE
                                                  6285 FRANCONIA ROAD
                                                ALEXANDRIA, VA 2231 0-251 0
                                                           -
                                                       (703) 922-7622
                                                    FAX: ( 7 0 3 ) 922-8256
LESLIE A. LEIPER                                                                                           WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                     SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                        REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




       J. Russell George
       Inspector General
       Corporation for National and Comrriunity Service

            INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                        CONTROLS OVER FINANCIAL REPORTING

       We have audited the Schedule of Award Costs, as presented in Exhibits A through H, which
       summarizes the claimed costs of the Connecticut Commission on National and Community Service
       under the Corporation awards listed below, and have issued our report thereon dated June 30,2003.

         Program           Award Number                   Award Period                      Audit Period
       AmeriCorps          94ASCCT007                 08/29/94 to 12131/00               10101/98 to 12131/00
       AmeriCorps          00ASCCT007                 0910 1/00 to 0813 1/03             0910 1/00 to O9/3O/O 1
       Administrative      94SCSCT007                 0 1/27/94 to 12131/00              10101/98 to 12131/00
       Administrative      0 1SCSCT007                01/0 1/01 to 12131/03              01/01/01 to 12/31/01
       PDAT                95PDSCT007                 01/01/95 to 12131/01               10/01/98 to 12131/01
       Learn & Serve       98LSCCT007                 0710 1/98 to 09/30/01              10/01/98 to 09/30/01
       America Reads       98ARCCT007                 O9/O1/98 to 08/30/00               10/01/98 to 08/30/00
       Promise Fellows     98APSCT007                 11/01/98 to 12131/99               11/01/98 to 12131/99
       Promise Fellows     99APSCT007                 01/01/01 to 12/31/01               01/01/01 to 12/31/01
       Education Awards    97EDSCT038                 0710 1/97 to 12131/04              10/01/98 to 12/31/01
       Make a Difference   99MDDCT007                 1O/2O/98 to 12131/99               10/20/98 to 12131/99

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and Government Auditing Standards issued by the Comptroller General of the
        United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement.




                           MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
COMPLIANCE

Compliance with laws, regulations, and the Grant Provisions of the awards is the responsibility of
the Connecticut Commission on National and Community Service's management. As part of
obtaining reasonable assurance about whether the financial schedules are free of material
misstatement, we performed tests of compliance with certain provisions of laws, regulations, and the
terms and conditions of the awards. :However,our objective was not to provide an opinion on overall
compliance with such provisions.

Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
contained in the Corporation's statutes, regulations, and the Grant Provisions of the award.


Compliance Findings

The results of our tests of compliance disclosed the following instances of noncompliance:

1. The Commission did not track expenditures for the Administrative and PDAT grants by budget
line item, as stipulated in Grant E'rovisions. Consequently, we were unable to compare the
Commission's claimed amounts to specific Program Budget line items. The AmeriCorps General
Provisions entitled "Financial Management Provisions" state "this [Financial Management] system
must be able to identify costs by pr~~grammaticyear and by budget line item."

This condition is caused by the fact that the State of Connecticut Central Accounting System does
not summarize financial information by line item. The effect of this condition is that, for most grants,
the Commission is unable to perfornl a comparison of actual expenditures to budget line item. It is
difficult to control costs if management is unaware of how expenditures compare with the budget.

AmeriCorps subgrantee requests for reimbursement forms, and more recently, the Web Based
Reporting System (WBRS), include budget line items and expenditures of Federal funds and grantee
matching. In spite of this information being available for subgrantees, the Commission's financial
management system is not configured to provide a comparison of actual expenditures to budget line
items. For grants without subgrantees,such as Administrative, no budget line item comparisons with
expenditures are available.

In its response to a draft of this report, the Commission noted that the required information can be
extracted from monthly reports produced by the State of Connecticut Central Accounting System.
The Commission, however, does not routinely prepare comparisons of actual expenditures to the
corresponding amounts budgeted.
Recommendation

We recommend that the Commission establish policies, procedures and accounting practices within
its current recordation systems to utilize the respective grants' appropriation codes and budget line
items for tracking the funded and expended amounts by grant, program year and budget line item.

2. The Commission did not submit Financial Status Reports (FSRs) for the following grants on a
timely basis, as stipulated in the Grant Provisions.

I Grant                                I   Submitted Late      I   On Time     I   Percent Late   1
 94ASCCT007 - AmeriCorps                         3                    5               37.5%
 00ASCCT007 - AmeriComs                          1                    3                25%
I00ASFCT007 - AmeriCorps               I         1             I      1        1       50%        1
I 94SCSCT007 - AmeriCorps              I           2           I      6        1       25%        1
I 01SCSCT007 - Administrative          I           2           I      2        1       50%        1
 95PDSCT007 - PDAT                                4                   8                33%
 98LSCCT007 - Learn & Serve                        2                  9                18%
 98ARCCT007 - America Reads                        1                  7               12.5%
I 99APSCT007 - Promise Fellows I                   1           I      3        1       25%        1
We believe the basic cause of the above condition was that Commission management did not place
the proper emphasis, in the financial management process, on the timely gathering of the information
necessary to prepare FSRs.

The Corporation has established due dates for FSRs for each program for each year. We matched
due dates with actual FSR submission dates to arrive at the results shown above.

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Both the grantor and grantee require current financial information for timely and
effective management decision-making.

Recommendation

We recommend that the Commission establish policies and procedures to ensure that FSRs are
properly completed and submitted on a timely basis.
3. The following AmeriCorps subrecipients did not submit Financial Status Reports on a timely
basis:


d;>:Subreci ient                            .ate          On Time            Percent Late
                                                             11                  50%
 RYASAP                                1                     11                   8%
 SCS                                   1                     11                   8%
 Urban Solutions                       4                     6                   40%


The basic cause of the above condition appears to be that the Commission's subrecipient
indoctrination and oversight process did not adequately emphasize the importance of preparing and
submitting correct and timely Financial Status Reports.

Office of Management and Budget Circulars A-102 and A-1 10, as well as AmeriCorps Provision
No. 16, "Reporting Requirements," provide for the submission of quarterly FSRs. The Commission
also established annual subrecipient FSR due dates in order to provide the time necessary to
aggregate Commission FSRs and meet the Corporation's FSR due date schedule. Subrecipient due
dates were compared with submission dates to arrive at the above schedule.

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. The grantee and subrecipients require current financial information for timely and
effective management decision-making.

Recommendation

We recommend that the Commission establish policies and procedures to ensure that FSRs are
properly completed, supported by adequate documentation, and submitted on a timely basis.

4. The Connecticut Commission or1 National and Community Service paid $3,000 to an individual
for a July 2000 retreat, based on a $1,200 per-day rate. The claimed daily rate exceeds the $443 limit
for consultant services established by Corporation Grant Provisions. Based on an audit calculation
of 2.5 days ($3,000 + $1,200) at $443 per day, the allowable Federal portion should not exceed
$1,108. Accordingly, we have questioned the difference of $1,892.

Responsibilities under Grant Administration 3.a., under Section C., General Provisions for Program
Development and Training, Disability Placement and State Adrmnistrative Awards, requires that "the
Grantee has full fiscal and programmatic responsibility for managing all aspects of grant and grant-
supported activities, subject to the oversight of the Corporation. The Grantee is accountable to the
Corporation for its operation of the .AmeriCorps program and the use of Corporation grant funds. It
must expend grant funds in a judicious and reasonable manner."
Further, Responsibilities under Grant Administration 4.e., under Section C., General Provisions for
Program Development and Training, Disability Placement and State Administrative Awards,
requires that "payments to individuals for consultant services under this Grant will not exceed $443
per day (exclusive of any indirect ex.penses, travel, supplies and so on)."

This condition results in a violation of the terms and conditions of AmeriCorps provisions and
excess costs of $1,892 charged to th'e grant.

Recommendation

We recommend that the Commission establish procedures to ensure that costs claimed are in
conformity with AmeriCorps provisions.

5. The following discrepancies were noted between Administrative and PDAT grant costs reported,
and costs recorded in the general ledlger.

Administrative - FSR costs exceeded the general ledger for the three years ended December 3 1,
2001, by $7,571.

I Source:                                                                             Amount
 Financial Status Reports                                                           $412,228
 General Ledger/Proeram Reuorts                                                      404.657
1Excess of FSR Reported Cost Over General Ledger                                      $7,571   1
PDAT - FSR costs exceeded the general ledger for the three years ended December 31,2001, by
$32,064.

I Source:                                                             I               Amount   I
    Financial Status Reports                                                        $190,354
    General Led~erIProgramReuorts                                                    158.290
I   Excess of FSR Reported Cost Over General Ledger                                  $32,064   1
CCNCS personnel did not provide a reconciliation of the difference in costs per the FSRs.

Financial Management Provision 4.a., under Section C., General Provisions for Program
Development and Training, Disabi1it:y Placement and State Administrative Awards, requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail, and written cost allocation procedures as necessary."

Financial Management Provision 4.b., under Section C., requires that "the Grantee must maintain
adequate supporting documents for its expenditures and in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition is caused by a failure to ensure that amounts reported on FSRs are reconciled with the
Commission's records. We have not questioned these differences because they may arise from
timing differences and may predate the period covered by this audit.

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation
We recommend that the Commission prepare worksheets and reconciliations to support any
differences between the FSRs and the underlying accounting records.

6. AmeriCorps subrecipient costs exceeded the amounts reported on the Commission's FSRs by
$624,116 for the period September 1, 1998, to September 30, 2001.

                                                                                            Amount
                                           - all subgrants for the period through
 313 1101                                                                               $6.596.213
 Commission Financial Status Reports for the period through 313 1/01                     5,972,097
 Difference                                                                               $624,116

Commission financial personnel stated that the difference was due in part because Urban Solutions
was undergoing an audit and the final figures were unavailable for inclusion in the Commission's
FSRs. It was also noted that since WBRS was not in effect until the 2000-2001 program year,
resulting in a lack of coordinatior~of financial information between the Commission and its
subrecipients.

Financial Management Provision 4.a., under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards, requires that "the
Grantee must maintain financial mamagement systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

Financial Management Provision 4.b., under Section C., requires that "the Grantee must maintain
adequate supporting documents for its expenditures and in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."
This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-malung.

Recommendation

We recommend that the Commission develop and implement an internal control procedure to ensure
that the total funds expended by the subrecipient are reconciled to the total costs reported and
claimed by the Commission.

7. Our tests of Other Direct Costs claimed by Commission subgrantees disclosed various items
charged that were misclassified, or lacking purpose and/or supporting documentation as follows:

LEAP

   The LEAP cost category designated "Group Expenses" was represented as used to provide a
   variety of goods and services to children under the care of AmeriCorps members and other LEAP
   counselors. The funds were generally spent by the counselors and later reimbursed pending
   submission of receipts. Our review of a transaction in June 1999 disclosed that the costs charged
   ($8,447 Federal and $16,366 Match) could not be identified with particular activities and could
   not be distinguished from personal expenditures. Another cost claimed of $2,750 in July 2001
   was supported by a large envelope of receipts that were in no order and in unauditable condition.
    As with the transaction above, the costs could not be identified with specific project functions.
   Group expenses were incurred and claimed in each year of the audit period.

   Transportation costs of $2,190 that were incurred in August 1999 were supported only by a
   purchase order. It was not possible to determine if the service had actually been provided, nor
   was it possible to determine the exact nature of the trip.

   Airfare costs of $1,433.50 for trips in April 1999 were billed to a credit card and supported only
   by travel itineraries. Ticket receipts were not available for audit review and no other information
   was provided to indicate the reasons for the trips and whether they were, in fact, taken.

   LEAP wrote a $1,000 check to IJrban Solutions in June 2000 as a deposit on an apartment to
   house counselors. The subgrant was charged, but a notation on the documentation indicated that
   the check was never cashed. No adjustment appears to have been made to reduce expenses and
   correct the error.

    A $7,300 payment for t-shirts, invoiced at $7,227.22, resulted in a refund due from the supplier
    for $72.78. No adjustment was made to the subgrant for the cost reduction.
RYASAP

  A review of hotel costs disclosed numerous personal expenses, such as phone calls and
  entertainment, that were charged to the subgrant. These items should have been reimbursed to
  the agency and deducted from costs claimed. RYASAP was also apparently unaware that it was
  subject to Federal Travel Regulations.

  RYASAP was unable to document the purpose of trips made to Las Vegas in 1999 and to Atlanta
  in 2000. The travel was ostensibly for AmeriCorps/CommunityService related conventions but
  no brochures or other identifying information was provided to substantiate this claim.

  AmeriCorps match costs claimed included PDAT funding, as noted in the table below.
  RYASAP personnel indicated that they were not aware that the origin of PDAT funds was
  Federal as opposed to State and, therefore, was not eligible to be claimed as a match cost. (Note:
  Commission records indicate that an additional $1,537 - for a total of $2,193 - was provided to
  RYASAP in 2001. The subgrantee claims the lesser amount of $656.)

                                                                   Amount
                                                                    $5.000



  RYASAP was unable to provide supporting documentation for, and the purpose of, a March
  2000 hotel charge of $299.

  A deposit of $426 for a t-shirt order in April 2001 appears to have inadvertently been paid twice;
  once when the order was placed and again when the order was delivered. Confusion resulted
  because the invoice did not reflect the prepayment and the supplier's name on the invoice
  differed from the name of the colmpany that had received the deposit.



  Our tests disclosed various expenditures for which supporting documentation was unavailable.
  These costs, including such item,sas travel, office expenses and miscellaneous charges incurred
  on behalf of the children assigned to the AmeriCorps members, are summarized in the following
  table:


                       I   :;;ram   Year
                                                                   Amount
                                                                    $1.806
   Advance payments of $300 to an amusement park and $225 to a museum for entertainment
   expenses for children enrolled in the program, resulted in refunds of $102 and $80, respectively.
   No adjustment was made to the subgrant for the cost reduction.

   AmeriCorps match costs claimed included PDAT funding of $1,070 in program year 2001. SCS
   did not segregate this grant from AmeriCorps costs claimed in the general ledger, and any costs
   in excess of the allowable Federal portion were inadvertently included in the match cost pool.

AmeriCorps Provision 2 1.a., under Section C., Financial Management Provisions, requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

AmeriCorps Provision 21.b., under Section C., requires that "the Grantee must maintain adequate
supporting documents for its expenditures and in-kind contributions made under this Grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

Although the items above appear to be the result of inadvertent misclassification of costs charged to
the subgrants, and errors in the filing or retention of documentation, this condition results in a
violation of the terms and conditions of the grant and potential funding misapplications. Properly
supported and accurate financial information is required for timely and effective reporting and
management decision-making.

Recommendation

We have not questioned any of these costs because the subrecipients had more than enough excess
match costs to offset these amounts had they been questioned. We recommend that all subrecipient
charges be adequately supported, charged to correct cost centers and grant periods, and that all
documentation in support of claimed costs be retained for the required three-year retention period.

8. Our review of LEAP'S member records disclosed various exceptions as noted.

    Documentation was missing from AmeriCorps files tested as noted in the table below:

       Issue                                   1999                 2000                 2001
       Background Checks                      44 of 45             19 of 47             16 of 82
       Parental Consent Forms                  2of4                    -                2 of 28
   [   Member Contracts                       16 of 45              1 of 47                 -

    For the 1998-1999 and 1999-2000 program years, AmeriCorps members were paid by the hour
    based on the number of hours worked. This practice violates AmeriCorps Special Provision
    B. 12.b. Living Allowance Distribution that states, "Programs must not pay a living allowance on
    an hourly basis. It is not a wage and should not fluctuate based on the number of hours members
    serve in a given time period."

   As part of our review of member files, we tested for the existence of files for all members on the
   rosters, whether or not they were selected for specific audit tests. Comparison of member files to
   the names listed on the rosters disclosed numerous files of individuals not listed for the years
   1998 and 1999, and therefore not included in the audit samples. This was because the rosters
   provided by the Commission and used to select the samples were incomplete. The member lists
   were subsequently updated by LEAP and compared to the files on hand. As a result of this
   review, we were unable to locate two member files for the 2001 program year.

The cause of the missing documentation from the members' files appears to result from the lack of
emphasis on the importance of properly maintaining the members' records. We noted improvement
in more recent audit periods (2000-,2001).

The AmeriCorps provisions which establish policies and procedures for the subrecipients to follow
with regard to the members' records, eligibility and support are as follows:

 AmeriCorps Special Provisions                  1999                 2000                2001

 Section B                              1   7,8,15&17        1   7,8,15&17       1   6,7,14&16       1
This condition results in violation of the terms and condition of AmeriCorps provisions and potential
funding misapplications.

Recommendation

We recommend that the Commission emphasize to its subrecipients the importance of maintaining
proper and complete member records and establish policies and procedures to monitor compliance
with AmeriCorps provisions on member files.

9. SCS's September 30, 2001, reported costs of $187'3 12 for the year ended August 31, 2001,
included FY 2002 costs of $10,818 for the month of September 2001. SCS financial management
personnel noted that the additional costs were erroneously charged to FY 2001 because of difficulties
in the use of WBRS. Management acknowledged the probability that the $10,818 was also claimed
in FY 2002, resulting in the costs for September 2001 having been claimed twice.

AmeriCorps Provision C.21.a., entitled "Financial Management Provisions," requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary.
Financial management systems must be capable of distinguishing expenditures attributable to this
Grant from expenditures not attributable to this grant. This system must be able to identify costs by
programmatic year and by budget category and to differentiate between direct and indirect costs or
administrative costs."

This condition overstates costs claimed and results in a violation of the terms and conditions of
AmeriCorps provisions.

Recommendation

We recommend that the Commission determine if SCS has claimed the $10,818 from September
2001 in FY 2002, as well as FY 2001, and adjust reimbursements accordingly. The Commission
should emphasize to its subrecipients the importance of maintaining accurate and complete financial
records and establish policies and procedures to monitor compliance with AmeriCorps provisions.

10. Our analysis of space occupied by SCS's AmeriCorps program, compared to the costs per
square foot applicable during the audit period, resulted in an audit calculation of excess rental
charges totaling $5,288, or 36 percent, as noted below.

 Program Year                      Rent Charged             Rent per Audit               Difference
 1999                                    $6.852                     $4.860                   $1.992




The rent calculation per audit was based on the percentage (13.17) of space occupied by the
AmeriCorps program applied to total applicable annual rent expense of $36,900.

AmeriCorps Provision C.21.a., entitled "Financial Management Provisions," requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary.
Financial management systems must be capable of distinguishing expenditures attributable to this
Grant from expenditures not attributable to this Grant. This system must be able to identify costs by
programmatic year and by budget category and to differentiate direct and indirect costs or
administrative costs."

AmeriCorps Provision C.21.b. requires that the "Grantee must maintain adequate supporting
documents for its expenditures and in-kind contributions under this Grant. Costs must be shown in
books or records and must be supported by a source document, such as a receipt, travel voucher,
invoice, bill, in-kind voucher, or similar document."

This condition overstates costs claimed and results in a violation of the terms and conditions of
AmeriCorps provisions.
Recommendation

While we have not questioned this cost, because SCS has more than enough excess match costs to
offset this amount, we recommend that SCS review its procedures for rent allocation calculations so
that costs charged to the AmeriCorps program are in closer approximation to the space utilized.

11. Our review of SCS's financial records disclosed several accounting system and general ledger
issues. We noted manual entries made directly to the general ledger, ending balances from one
month that differed from the beginning balances in the following month, and certain payroll amounts
in FY 2001 that were different from those reported on the FSR. Generally, the differences were not
material to the cost report but were significant enough in frequency to justify comment.

AmeriCorps Provision C.21.a.' entitled "Financial Management Provisions," requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. The grantee and subrecipients require accurate and properly supported financial
information for timely and effective management decision-making.

Recommendation

We recommend that SCS follow established accounting policies and procedures to ensure that all
adjustments and other entries to the accounting records are properly made and adequately
documented.

12. Our tests of payroll and benefit costs claimed by Commission subrecipients disclosed the
following exceptions:

LEAP

   Workman's Compensation and General Liability insurance reimbursement billings were based
   on an estimated rate of two percent applied to payroll costs. We computed rates for each
   program year audited based on actual total charges for insurance and payroll, as noted in the table
   below.

     Description                                                   1999          2000            2001
     Gross Payroll                                           $2,497,828    $2,792,300      $2,953,990
     General Liability and Workman's Comp. @ 2%                  49,957        55,846          59,080
     General Liability and Workman's Comp. - Actual              37,213        42,827          43,244
     Excess of Billing over Actual - Agency Totals               12,744        13,019          15,836
     Actual Insurance cost as a Percent of Gross Payroll          1.49%         1.53%           1.46%
   Based on the above, we have recomputed the excess General Liability and Workman's
   Compensation applicable to the AmeriCorps subgrant wages and stipends.

     Description                                                     1999         2000         2001
     AmeriCorps Subgrant Payroll                                 $801,904     $550,653     $638,807
     General Liability and Workman's Comp. @ 2%                    16,038       11,013       12,776
     General Liabilitv and Workman's Comn - Actual                 11.948        8.425        9.327
     Excess of Billing over Actual - Agency Totals                  4,090        2,588        3,449
     Actual Insurance cost as Percent of AMC Payroll               1.49%        1.53%        1.46%

RYASAP

   Our review of employee time sheets disclosed one for the period ending September 7,2001, that
   incorrectly listed 65.5 hours worked. Actual hours were 63.5 with the balance of 6.5 hours for
   the 70 hour pay period unaccounted for. Another time sheet for the same pay period could not be
   located. We also noted time sheets for another employee which had not been signed by the
   supervisor for the 1999 and 2000 pay periods reviewed. The time sheets from 2001 for that
   individual were properly signed by both the employee and supervisor.



   SCS claimed $1,518 more in staff/employee benefits on the FSRs than was determined by the
   audit calculation. Employee benefits, that include FICAJMedicare,unemployment, employer's
   401(k) contribution and health benefits, were recalculated and compared to the amounts claimed
   for each of the three program years under audit.

     Program Year                                            Claimed      Computed        Difference
     1999                                                    $24,563        $24,873           $(310) ,


   ( Excess of Claimed Benefits Cost Over Actual                      -              -        $1,818 1

AmeriCorps Provision C.21.a., entitled "Financial Management Provisions," requires that the
"Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary.
                                                                                                         .
Financial management systems must be capable of distinguishing expenditures attributable to this
Grant from expenditures not attributable to this Grant. This system must be able to identify costs by
programmatic year and by budget category and to differentiate between direct and indirect costs or
administrative costs."

AmeriCorps Provision C.21.b. requires that the "Grantee must maintain adequate supporting
documents for its expenditures and in-kind contributions under this Grant. Costs must be shown in
books or records and must be supported by a source document, such as a receipt, travel voucher,
invoice, bill, in-kind voucher, or similar document."

These conditions overstate costs claimed and result in violations of the terms and conditions of
AmeriCorps provisions.

Recommendation

While we have not questioned this cost because the subrecipients have more than enough excess
match costs to offset this amount, we recommend that subrecipients review procedures for payroll
and benefit allocation calculations so that costs charged to the AmeriCorps program are in closer
approximation to the actual costs incurred.

                INTERNAL CONTROLS OVER FINANCIAL REPORTING

In planning and performing our audit of award costs, as presented in Exhibits A through H for the
period October 1, 1998, to December 3 1,2001, we considered the Commission's internal controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide assurance on the internal controls over financial reporting.

The Commission's management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, management estimates and judgments are required to assess the
expected benefits and related costs of internal control policies and procedures. The objective of
internal controls are to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition, and that transactions are executed
in accordance with management's authorization and recorded properly to permit the preparation of
financial schedules in accordance with generally accepted accounting principles of the United States
of America. Because of inherent limitations in any internal controls, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the internal controls to
future periods is subject to the risk that procedures may become inadequate because of changes in
conditions, or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

Our consideration of this matter would not necessarily disclose all matters of internal controls over
financial reporting that might be reportable conditions. Under standards issued by the American
Institute of Certified Public Accountants, reportable conditions are matters coming to our attention
relating to significant deficiencies in the design or operation of internal controls that, in our
judgement, could adversely affect the Commission's ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce, to a relatively low level, the risk that errors or
irregularities in amounts, which would be material in relation to the financial schedules being audited
or material to a performance measure or aggregation of related performance measures, may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions.

                              INTERNAL CONTROL FINDINGS

Findings Nos. 1 through 12 set forth in the Compliance section of the report are also considered
findings on internal control.
                   FOLLOW-UP ON PRE-AUDIT SURVEY FINDINGS

Finding No. 1

Because the Commission did not maintain documentation for all program years reviewed in the pre-
audit survey, it was not possible to confirm whether the Commission's selection officials signed
conflict of interest forms as required. No recommendation was considered necessary because
procedures were revised, beginning with program year 2000-2001, to include retention of these
documents.

Current Status

Procedures have been in place since 1999-2000 and peer reviewers, as well as Commission
members, also sign the conflict of interest form. We consider this finding closed.

Findinp No. 2

Because of the lack of documentation for the years prior to 1999-2000, the reviewer was unable to
determine if assessments of applicants' financial management systems were performed by the
Commission. No recommendation was considered necessary because procedures were revised,
beginning with program year 2000-2001, to include documentation and retention of the
Commission's evaluations of applicants' financial management systems.

Current Status

Procedures now in place include reviewing an applicant's prior audit, reviewing audit findings with
the applicant, and insuring, through interviews, whether the applicant has qualified personnel to
manage Federal grant funds. We consider this finding closed.

Finding No. 3

There was a lack of documentation to support the assessment of an applicant's past experience
during the selection process. Assessments are made on score sheets during the selection process.
However, completed score sheets were not provided for 8 of 10 applicants reviewed. No
recommendation was considered necessary because procedures were revised, beginning with
program year 2000-2001, to include documentation and retention of the Commission's evaluations
of applicants' past experience.

Current Status

Referenced score sheets have been in place at the Commission since the 1999-2000 program year.
We consider this finding closed.
Finding No. 4

The reviewer noted weaknesses with respect to procedures and controls over the timeliness, accuracy
and validity of FSRs. These included late submissions and unexplained hfferences between
subrecipient FSRs and the aggregate amounts on the Commission's FSRs for the same periods. No
evidence was found to determine whether the Commission reviews documentation supporting
subrecipient FSRs, or whether matching amounts are reviewed as part of procedures performed
during FSR reviews or site visits. Although the Commission contracted with an independent
accounting firm in 1999 to assess the validity of subrecipient information, these reviews do not
include all program years.

Current Status

The Commission emphasized that FSRs were not submitted late to the Corporation and that each
month subrecipients are required to submit an expense report and cash request detailing expenses
incurred. The amounts reported on these forms are matched to the amounts on the FSRs.
Documentation is sometimes included to show adjustments, correspondence, and that all
subrecipients are subject to review and documentation of reported expenses. Because review and
analysis of subrecipient expenditures appears to have improved over earlier program years, we
consider this finding closed.

find in^ No. 5

The Connecticut Department of Higher Education's (DHE) written policies and procedures for
financial management, grant administration, evaluation, and monitoring do not include additional
guidelines specific to the Commission.

Current Status

Systems have been implemented for each job function within the Commission. They have been
documented and are revised as considered necessary. We consider this finding closed.

Finding No. 6

The pre-audit survey concluded that the Commission has not used WBRS to produce FSRs. The
Commission was expected to automate this procedure during program year 2000-2001.

Current Status

The Commission has implemented WBRS and the system is currently operational and in use. We
consider this finding closed.
Finding No. 7

The Commission has not implemented an adequate process for obtaining and reviewing OMB
Circular A-133 audit reports for its subrecipients and for following up on corrective actions taken.
The Commission does not consistently require these reports to be submitted and does not routinely
review them when submitted.

Current Status

The grants and contracts manager is now responsible for the receipt and review of A-133 audit
reports for all subrecipients. The reports are received, and a checklist is signed off, after the review
has been completed. Follow-up on audit findings, as considered necessary, is performed and
documented. The prior two years' audited financial statements are required to be submitted by
subrecipients not subject to the requirements of A-133. We consider this finding closed.

Finding No. 8

The lack of documentation supporting procedures conducted during site visits for all program years
precluded a determination of whether the subrecipients' financial management systems and records
supporting grant expenditures were reviewed. The Commission's 2000-2001 standard site form
provides guidance with respect to these procedures, but it does not include procedures for evaluators
to review and verify amounts reported by subrecipients.

Current Status

The grants and contracts manager performs desk reviews of the FSRs and other financial information
submitted by subrecipients. As of the fall of 2001, the accounting firm hired by the Commission
visited subrecipients and performed various tests of financial records on site. Prior to this period, the
firm's functions were limited to end-of-year reviews within six months after program closeout. We
consider this finding closed.
                                                    -&.(          7 k %
                                                           Leonard G. Birnbaum



Alexandria, Virginia
June 30,2003
                              Appendix A


Response of the Connecticut Commission on National and Community Service
              Connecticut Commission
              on National and Community Service
              W~lliarnR. Dyson, Chair




September 3, 2003

3. Russell George
Inspector General
Corporation for National and Community Service
Office of Inspector General
1201 New York Avenue, NW, Suite 830
Washington, D.C. 20525

Dear Mr. George:

Enclosed please find the response to the draft report on the results of the audit
of the Connecticut Commission on National and Community Service for the
period October 1, 1998 through December 31, 2001.

As a result of the audit, the Connecticut Commission on National and Community
Service was found to have $76,056 in questioned costs. As stated in the draft
report, $74,164 was attributed to the excess drawdown of Urban Solutions. The
Commission's financial procedures are based on a reimbursement process. The
Commission draws down money from the State Account and reimburses the
State by an equal amount from the Federal Account. As the Commission began
the process of closing out the 94ASCCT007 and the 00ASCCT007 AmeriCorps
grants, we claimed only costs that were supported by appropriate documentation
and within compliance of the AmeriCorps Provisions. With that said, the
Commission did not draw down the $74,164 from the Federal Account. Due to
the reimbursement process, it is the State of Connecticut's account that has been
overdrawn, rather than the Federal Account. Appropriate steps are being
pursued in concert by the Connecticut Department of Higher Education and the
Office of the State Attorney General.

The following comments are in response to the draft report compliance findings.

Finding #I
The Commission did not track expenditures for the Administration and PDA T
grants by budget line item, as stipulated in Grant Provisions.
The Commission has used a "Chart of Accounts" for each grant received from the
Corporation for National and Community Service. The Chart of Accounts
segregates each grant (e.g. AmeriCorps, Admin, PDAT) and to supplement the
chart of accounts, an extension system (SID - Special Identification Codes) is
used to code each expenditure by budgeted line item. On a monthly basis, a



         Connecticut Department o f Higher Education 61 Woodland Street Hartford, CT 06105-2326
                     Telephone: 860-947-1827 Fax: 860-947-1310 www.ccncs.ctdhe.org
              Connecticut Commission
              on National and Community Service
              William R. Dyson, Chair




report is produced from the Connecticut State Accounting system. This report
reflects all expenditures to date along with the coding used for each requisition
(SIDs). Based on this report, cumulative expenses can be determined for each
budgeted line item within each grant, as required by Connecticut State Audit
procedures.

Finding #2
The Commission did not submit Financial Status Reports (FSRs) for the following
grants on a timely basis, as st@ulatedin the Grant Provisions.
Grant           Submitted Late      On Time      Percent Late    Correction
00ASFCT007      1                   1            1OO0/o          501'0

Iurge you to consider the facts as presented in this letter and to edit the final
audit report appropriately. Recommendations made within the draft audit report
have been taken under advisement as the Commission continues to use due
diligence in all financial and programmatic areas and recording keeping.

Sincerely,




Connecticut Commission on National and Community Service




Cc: Honorable William R. Dyson, CCNCS Chair
   Valerie F. Lewis, Commissioner, DHE
   Cheryl Blankenship, Senior Program Officer, CNCS




         Connecticut Department of Higher Education 61 Woodland Street Hartford, CT 06105-2326
                     Telephone: 860-947-1827 Fax: 860-947-1310 www.ccncs.ctdhe.org
                         Appendix B


Response of the Corporation for National and Community Service
                                    Coraoration for      rn




To:

From:                                     f Grants Management

Date:

Subj:         Response to OIG Draft Audit Report 03-08: Audit of Grants Awarded to the
              Connecticut Commission on National and Community Service



We have reviewed the draft audit report of the grants to the Connecticut Commission and were
pleased to note that only two of the eleven grants under audit resulted in any questioned costs.
As noted by the auditors, all but $1,892 of the questioned costs were related to one subgrantee
that had drawn down funds in excess of amounts supported by its records. The Commission
agreed with the auditors and has addressed the issue. Due to the limited timeframe for response,
we have not yet reviewed the audit work papers nor discussed the findings with the Commission.
We will respond to all findings and recommendations when the audit is issued and we have
reviewed the findings in detail. The Connecticut Commission has also provided a response and
is working on corrective action as necessary.




                            1201 New York Avenue, NW    *
                                                     Washington, DC 20525
                                                 *
                                  202-606-5000 www.nationalservice.org
                           Senior Corps t AmeriCorps   * Learn and Serve America          The President's Call to service
